No.
IN THE
SUPREME COURT OF THE UNITED STATES

Arthur 0. Armstrong,
Petitioner,
v.
City of Philadelphia, PA. et al
Respondents.

PROOF OF SERVICE
Arthur O. Armstrong
I.
do swear or declare that on this date. Mav jJf
2021. as required by the Supreme Court Rule 29.1,1 have served the endosea petition for writ
of certiorari on each party in the above proceeding, or that party's counsel and every other
person required to be served by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or
by delivery to a third party or a commercial carrier for delivery within 3 calendar days: Office of
the general Counsel. School District of Philadelphia. 440 N. Broad Street. Suite 313
Philadelphia, PA 19130.1 declare under penalty of perjury thatjthe foregoing is true and
/ ,
/J /7
correct.
Executed on _May

Y- 2021.

